No. 21In the

Supreme Court of the United States
_________________
Allyn Akeem Smith,
Petitioner,
v.
State of Arizona,
Respondent.
_________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF ARIZONA
_________________
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
_________________

MIKEL STEINFELD
Counsel of Record
Maricopa County Public Defender’s Office
620 West Jackson, Suite 4015
Phoenix, Arizona 85003
Telephone (602) 506-7711
State Bar Attorney No. 024996
Mikel.Steinfeld@Maricopa.Gov
Counsel for Petitioner

CAPITAL CASE
MOTION
Petitioner, Allyn Akeem Smith, asks leave to file the attached petition for a writ of
certiorari to the Arizona Supreme Court without prepayment of costs and to proceed in forma
pauperis pursuant to Supreme Court Rule 39.
Petitioner was previously found indigent and appointed counsel. For the trial, the trial
court found Smith indigent and appointed counsel on February 10, 2015. After Smith was
convicted and sentenced to death, the Maricopa County Public Defender’s Office was appointed,
and filed its Notice of Appearance on July 20, 2018.
RESPECTFULLY SUBMITTED on January 19, 2021.
MARICOPA COUNTY PUBLIC DEFENDER

By

/s/ Mikel Steinfeld
MIKEL STEINFELD
Counsel of Record
Maricopa County Public Defender’s Office
620 West Jackson, Suite 4015
Phoenix, Arizona 85003
Telephone (602) 506-7711
State Bar Attorney No. 024996
Mikel.Steinfeld@Maricopa.Gov
Counsel for Petitioner

2

Michael K Jeanes, Clerk of Court
*** Electronically Filed ***
R. Montoya, Deputy
2/12/2015 4:16:00 PM
Filing ID 6403872

SUPERIOR COURT OF ARIZONA FOR
Maricopa County
Final Release Order and Order Regarding Counsel

State of Arizona

1 Cnt MURDER 1ST DEG- F1

1 Cnt FAIL TO REPORT F2

1 Cnt Att.MURDER 1ST DEG- F1

vs.
Allyn Akeem Smith

CaseNumber: PF2015106788001
Booking#: T152863

It is hereby ordered that Allyn Akeem Smith shall be released as indicated and must comply with ALL release conditions.
NEXT HEARINGS
Status Conference
February 17, 2015 at 08:30 AM at South Court Tower, 175 W. Madison Street, 3rd Floor, Phoenix,
AZ, 85003-2243 Courtroom: 3A Docket: RCCT1
Preliminary Hearing
February 20, 2015 at 08:30 AM at South Court Tower, 175 W. Madison Street, 3rd Floor, Phoenix,
AZ, 85003-2243 Courtroom: 3A Docket: RCCT1
WARNING: If the defendant appears at the next hearing without a lawyer, the hearing may still proceed as scheduled.
RELEASE TYPE
Bailable As a Matter of Right
The defendant has been found to be bailable as a matter of right. IT IS HEREBY ORDERED that the defendant must comply
with all release conditions and shall be released from custody in this Cause Number as follows:
Secured Appearance Bond
The defendant will deposit with the Clerk of the above Court the total sum of $500,000.00, which includes all applicable
surcharges.

RELEASE CONDITIONS
1. You are not to return to the scene of the alleged crime.
2. You are not to initiate contact with the alleged victim or victims.
3. You are not to have any physical contact with any alleged victim.
4. You are not to initiate contact with the arresting officers.
5. You are not to possess any weapons.
6. You are not to possess any drugs without a valid prescription.
7. You are not to drive a motor vehicle without a valid driver's license.
8. You must continue to provide the court with proof of your local address.
You must appear at all court proceedings in this case or your release conditions can be revoked, a warrant will be issued and proceedings may go forward in your
absence. In addition, failure to appear at a future court proceeding may result in a waiver of any claim that you were not informed of a plea offer made in your
case by the State. a.You will appear to answer and submit to all further orders and processes of the court having jurisdiction of the case. b.You will refrain from
committing any criminal offenses.c.You will diligently prosecute any appeal. d.You will not leave the state without permission of the court.
If you violate any conditions of this release order, the court may order the bond and any security deposited in connection therewith forfeited to the State of
Arizona. In addition, the court may issue a warrant for your arrest upon learning of your violation of any conditions of your release. After a hearing, if the court
finds that you have not complied with the conditions of release, it may modify the conditions or revoke your release altogether.

ATTORNEY APPOINTMENT
The Court finds you to be indigent and orders an attorney to provide you representation.
You must contact the Office of the Legal Defender at 222 N. Central Suite 8100, Phoenix, AZ. 602-506-8800

The following attorney, after filing a Notice of Appearance, appeared today on behalf of the defendant:
Attorney Name: Henry J Jonathan
Firm: Knowles Law Firm P L C
027976

Bar#:

Page 1 of 2

SUPERIOR COURT OF ARIZONA FOR
Maricopa County
Final Release Order and Order Regarding Counsel

Case#: PF2015106788001
Booking#: T152863

ACKNOWLEDGEMENT BY DEFENDANT
I have received a copy of this form. I understand the standard conditions, all other conditions, and the consequences of violating this release order. I agree to
comply fully with each of the conditions imposed on my release and to notify the court promptly in the event I change my place of residence.

Date 2/10/2015 8:00:00 PM

Address: 2829 WEST GOLD DUST AVENUE
City, State, Zip: QUEEN CREEK, AZ, 85142

Signature:
Kenneth Skiff

Allyn Akeem Smith

Judge / Commissioner

Defendant

Page 2 of 2

PEG GREEN
Deputy Public Defender
Downtown Justice Center
620 West Jackson Street, Suite #4015
Phoenix, Arizona 85003
Telephone (602) 506-7711
ACE@mail.maricopa.gov
State Bar Membership No. 011222
Attorney for APPELLANT
IN THE SUPREME COURT
STATE OF ARIZONA
STATE OF ARIZONA,
No. CR-18-0295-AP
Appellee,
v.

Maricopa County Superior Court
No. CR-2015-106788-001 DT

ALLYN AKEEM SMITH,
NOTICE OF APPEARANCE
Appellant.

Please take notice that PEG GREEN, on behalf of the Office of the Public
Defender, hereby makes an appearance in the above-referenced matter.
RESPECTFULLY SUBMITTED this 20th day of July, 2018.
MARICOPA COUNTY PUBLIC DEFENDER

By_________/s/_______________________
PEG GREEN
Deputy Public Defender
PGKL072018P

